                             CLOSEOUT FOR M95010002




        On January 6, 1995, OIG was
of the confidentiality of peer review by Dr.
the                  Program in the Division o
within the Directorate for
electronic mail messages from the complainant, Dr.
faculty member in the                                                          University. The
complainant had sent electronic messages containing the allegations to several colleagues, the
NSF program director, and a program director at another federal agency. In his messages he
alleged that at a scientific meeting an unidentified individual from a competing research group
had presented a device prototype similar to a design found in the complainant's and his
colleagues' NSF and other federal agency proposals. The complainant alleged that the
individual obtained the idea for the prototype during his or her peer review of either or both of
the proposals. In response to the complainant's initial electronic message, an Internet
discussion between the complainant and his colleagues about how to handle the allegations
ensued.

        OIG contacted the complainant and explained its management of misconduct
allegations and the confidentiality with which such cases were handled. The complainant
communicated this information to his colleagues. The complainant id
                    whom he described as a research group head at the
                 (the institution). OIG learned that there was no individual by that name
employed by the institution and that, according to NSF's Reviewer History System, the subject
had not reviewed the complainant's NSF proposal-                   The proposal was entitled,
I
                                                                and was the only proposal
identified by the complainant as containing the design allegedly stolen by the other research
group.

        OIG contacted the program officer at the other federal agency and learned that that
agency's proposals are only reviewed at the agency or at a central location. They not sent out
for review and are collected after the review meeting is over. Only government employees are
used as reviewers. Thus the individual identified by the complainant as the subject could not
have reviewed the complainant's proposal. The program off~cersaid that he did not consider
the idea the complainant alleged was stolen to be "a huge leap of intuition." He thought that
any "reasonably competent" scientist in that field could arrive at the same design.

       When asked, the complainant would not further identifl the subject. He said he had
seen the prototype device at an exclusive premeeting and thought it highly likely that, if OIG

                                      Page 1 of 2                              M95-02
                            CLOSEOUT FOR M95010002

contacted the subject, he would be identified as the complainant. He added that he and his
colleagues were insulted because NSF had declined their proposal. OIG explained the
separation between NSF's programmatic decisions and OIG's administration of misconduct-
in-science cases. Despite OIG's assurances that its policy was to keep the identities of
complainants confidential, the complainant in this case would not provide information to
allow OIG to pursue the case further.

        OIG concluded that, because the individual identified by the complainant had not
reviewed his NSF proposal and, on the basis of information from the other agency's program
officer, had not reviewed the other agency proposal, there was no evidence to support the
complainant's allegation that the confidentiality of peer review had been violated. OIG further
concluded that the existence of a prototype similar to the complainant's design was not
evidence of intellectual theft because, in the other agency's program officer's opinion, any
"reasonably competent" scientist would have been able to develop the same design.
Therefore, OIG concluded that the complainant had supplied insufficient evidence to pursue
this case, and the existing evidence did not support the complainant's allegations.

       OIG closed this inquiry and will take no further action in this case.




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page 2 of 2
